HHS/OIG, Audit - "Review of Undistributable Child Support Collections in
Maryland From October 1, 1998, Through December 31, 2005," (A-03-06-00565)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Undistributable Child Support Collections in
Maryland From October 1, 1998, Through December 31, 2005," (A-03-06-00565)
January 15, 2008
Complete
Text of Report is available in PDF format (595 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
From October 1, 1998, through December 31, 2005, the State
agency reported no program income from undistributable child support
collections.  As of December 31, 2005, the State agency had not reported program
income totaling $3,276,134 ($2,162,248 Federal share) in undistributable
collections.  The State agency properly reported program income for interest
earned on undistributed collections.
We recommended that the State agency (1) transfer $2,842,600 ($1,876,116 Federal
share) in undistributable child support collections to the Abandoned Property
Unit and report it as program income, (2) report as program income $433,534
($286,132 Federal share) in undistributable collections that had already been
transferred to the Abandoned Property Unit, (3) modify its computer program to
accurately recognize as abandoned and report undistributable collections as
program income, and (4) provide training to ensure that State officials follow
policies and procedures for identifying abandoned property and reporting it as
program income.  The State agency agreed with all of our recommendations.